          REMARKS OF EVELYN R. KLEMSTINE
           ASSISTANT INSPECTOR GENERAL
                       AUDIT


           U.S. DEPARTMENT OF STATE AND
      THE BROADCASTING BOARD OF GOVERNORS

                    BEFORE THE


               UNITED STATES SENATE
COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL
                    AFFAIRS
     SUBCOMMITTEE ON CONTRACTING OVERSIGHT


                        ON


DOD OBLIGATIONS AND EXPENDITURES OF FUNDS PROVIDED
  TO THE DEPARTMENT OF STATE FOR THE TRAINING AND
      MENTORING OF THE AFGHAN NATIONAL POLICE


                   APRIL 15, 2010
     Thank you Chairman McCaskill and Ranking Member Brown for
the opportunity to present our joint audit on the national police
training program contract in Afghanistan with the Department of
Defense (DOD) Inspector General.
     We conducted this joint audit in response to a Congressional
request, with an objective of determining the ability of the Afghan
National Police (ANP) training program to address Afghan security
needs. We also reviewed contract management activities and the
status of Afghanistan Security Forces (ASF) funds provided by DOD
to the State Department.
      In 2006, when the security environment in Afghanistan was
more stable, DOD decided to use the State Department’s existing
Civilian Police Program (CIVPOL) contract to implement the ANP
training program. The contractor, DynCorp International, was
awarded two task orders, valued in excess of $1 billion. These two
task orders directed DynCorp to provide personnel, life support, and
communications for the training program. The State Department was
responsible for procuring services, overseeing the contract, and
managing and reporting on funds transferred from DOD.
     We found that under the CIVPOL contract, DOD did not have
the authority to direct the contractor, thereby restricting DOD’s ability
to rapidly modify ANP training to respond to the rising insurgency
and the changing security situation in Afghanistan. While the State
Department was focused on training the ANP to be an effective
                                    1 
 
police force after security in Afghanistan had been stabilized, DOD
was focused on the survival and tactical training of the ANP to
counter the growing insurgency. In addition, while the foundation
has been laid for an effective women’s police training program, there
has been inadequate progress in training a sufficient number of
Afghan women. The lack of trained women’s police corps members
has limited the effectiveness of law enforcement in Afghanistan.
     We recommended correcting these deficiencies by clearly
defining ANP training program requirements, increasing the training
facility capacity for women police members, and enhancing efforts to
recruit women training instructors. In response to the draft report,
management provided a detailed description of the requirements for
the training program and agreed to provide additional resources for
training women police.
     In overseeing the CIVPOL contract, we found that State
Department contracting officials did not assign sufficient numbers of
contract oversight personnel to the ANP task orders and did not
prepare a Quality Assurance Surveillance Plan to ensure that the
contractor met the performance requirements of the statement of
work. In addition, those contracting personnel who were assigned to
monitor the task orders did not provide adequate oversight to ensure
that all goods and services were received. Specifically, the following
internal control weaknesses were identified:


                                  2 
 
    (1)     Government-furnished     property    was    not    adequately
            accounted for;
    (2)     Contract files were incomplete and not always available;
    (3)     Deliverables were not always matched to receiving reports;
            and
    (4)     Procedures for reviewing contractor invoices to determine
            whether the costs were proper were not followed.
          As a result of these internal control weaknesses, State
Department personnel could not ensure that funds allocated by DOD
for the program were expended in accordance with DOD
requirements. We recommended that the number of contract
personnel responsible for contract oversight be increased, that a
complete inventory of Government property be performed, that the
contracting officer maintain complete and accessible contract files,
and that goods and services be matched against invoices. In
addition, we recommended that the Defense Contract Audit Agency
(DCAA) perform an audit to determine whether all expenditures were
allowable, allocable, and reasonable and request reimbursement
from DynCorp for any payments that DCAA determines to be
improper. In response to our recommendations, management
agreed to increase the number of oversight personnel going forward,
strengthen internal controls, and undertake an audit.
          In addition to identifying various internal control weaknesses,
we also requested contractor invoices and other supporting
                                      3 
 
documents for $217 million in ASF funds already expended.
Unfortunately, State Department financial managers did not provide
detailed transaction data until after the draft report was issued. As a
result, we could not determine whether the Department had
expended funds in accordance with Congressional intent. However,
we did ascertain that $80 million in funds transferred from DOD
remained unexpended well after the end of their availability period
established by appropriations law. We recommended that the State
Department determine the status of ASF funds and that any excess
funds, to include the $80 million in expired funds, be returned.
     In March 2009, the President announced a comprehensive new
strategy for Afghanistan, which included an emphasis on training and
increasing the size of Afghan security forces. The State Department
and DOD are committed to providing a stable and secure
environment for all Afghan citizens. This requires that we effectively
train and mentor Afghan forces, monitor our contracts effectively,
and ensure that the taxpayers’ money is spent appropriately.
     Finally, I would like to note that this audit was conducted in six
months. Given the scope of the work, which took place in the United
States and six locations in Afghanistan, the short time for its
successful completion is a tribute to the professionalism of the audit
co-directors, Mr. Mark Ives from DODIG and Mr. Jim Pollard from the
State Department OIG, and their teams.


                                   4 
 
    Once again, I thank you, Chairman McCaskill and Senator
Brown, for the opportunity to appear today, and I am ready to answer
your questions.

 




                                 5 
 
